Audit Report

Office for Victims of Crime, 
Antiterrorism and Emergency Program 
Grant for Victim Compensation 
Administered by 
the New Jersey Victims of Crime 
Compensation Board,
Newark, New Jersey, 
Grant Number 2003-RF-GX-0001

Report No. GR-70-05-004


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Antiterrorism and Emergency Assistance Program grant awarded by the U.S. Department of Justice, Office of Justice Programs, Office for Victims of Crime, to the New Jersey Victims of Crime Compensation Board (Board).  The purpose of the grant is to provide compensation to New Jersey residents who suffered financial losses as a result of the terrorist attacks of September 11, 2001.  

We tested the Board's accounting records to determine whether reimbursement claimed for costs under the grant was allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

The Board generally complied with grant requirements.  However, we determined and report as questioned costs grant funds totaling $9,708 the Board used to pay claims that were unallowable according to the grant and incurred administrative charges of $17,302 in excess of grant conditions.1   In addition, we determined the Board should strengthen its internal controls related to payments the Board makes based on another state's claim investigation.  The amount of unallowable expenditures represents 1 percent of total grant activity of $2,696,196.    

Our audit results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.   



Footnotes

  The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for our dollar-related finding and for a definition of questioned costs.